 DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General


        Audit of Export Controls for Activities
                  Related to China



                      Unclassified Summary




 Notice: The DHS OIG has modified this report for public release. The modifications
 were made pursuant to the Freedom of Information Act, 5 U.S.C. § 552.




                             Office of Audits

OIG-06-28                                                       March 2006
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                             Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, efficiency, and effectiveness within the department.

This report represents a public summary of our limited official use report assessing the effectiveness
of the U.S. government’s export control policies and practices with respect to preventing the transfer
of sensitive U.S. technologies and technical information to the Peoples’ Republic of China. It is
based on interviews with officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

This report discusses the status of recommendations from prior reports but does not make new
recommendations. Therefore, no formal response to this report is necessary. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
                                                                                                  Audit
OIG                                                                                               Report
Department of Homeland Security
Office of Inspector General

Unclassified Summary
                          This report presents the results of our review of export control activities
                          related to China1. It is the sixth in the series of seven interagency audits
                          required2 by Congress on transfers of militarily sensitive technology and
                          technical information to countries and entities of concern.

                          The objective of the interagency3 audit was to determine the effectiveness of
                          the United States (U.S.) government’s export control policies and practices
                          with respect to preventing the transfer of sensitive technologies and technical
                          information to China. Specifically, we attempted to answer these questions:

                                  o      For arrests made in connection with violations of export
                                         requirements to China, were the commodities properly screened
                                         prior to release?

                                  o      Has DHS taken actions or established documented plans to
                                         implement the recommendations of the prior audit reports?

                          We reviewed Immigration and Customs Enforcement (ICE) arrests for the
                          illegal exportation of militarily sensitive commodities to China in FY 2004
                          and 2005; CBP export screening procedures in effect during October and
                          November 2005; and recommendations from our prior audit reports open at
                          September 2005. Additionally, we reviewed the policies and procedures
                          applicable to the exportation of militarily sensitive commodities, and
                          interviewed responsible agency officials. Further, we obtained documentation
                          to support the implementation or correction of prior open DHS bureau audit
                          recommendations. We visited Customs and Border Protection (CBP), ICE,
                          and United States Citizenship and Immigration Service (USCIS) headquarters
                          in Washington, D.C. Also, we visited CBP port offices in Boston,
                          Massachusetts; Houston, Texas; Atlanta, and Savannah, Georgia, as well as
                          the ICE Special Agent-In-Charge office in Boston, Massachusetts. This audit


1
  The use of the term “China” in this report refers to the Peoples’ Republic of China and Hong Kong.
2
  The National Defense Authorization Act for Fiscal Year (FY) 2000, Public Law 106-65, section 1402, October 5, 1999,
contains the requirement.
3
  The OIGs for the Department of Commerce, Department of State, Department of Defense, Central Intelligence Agency,
and the Department of Homeland Security are participating in the audit this year.



                                   Export Controls for Activities Related to the PRC
                                                        Page 1
was conducted from September to November 2005 according to generally
accepted government auditing standards.

The relationship between export related arrests and the export screening
process is limited, and did not allow us to draw conclusions about the
effectiveness of CBP’s screening process. Because we did not have sufficient
data to determine whether CBP properly screened commodities prior to
release based on arrests made, we reviewed CBP export control procedures at
four ports and the ICE arrest cases. This review did not disclose any
conditions that had not been reported in prior audits.

Of our seven prior open audit recommendations, DHS bureaus took actions to
close two recommendations and established documented plans to implement
four more. The remaining prior audit recommendation addressed to ICE is
unresolved.

               Summary of Prior Audit Recommendations
OIG Report      Finding # -      DHS                  Status
 Number      Recommendation #   Bureau
OIG-03-069        F2-R4          ICE     PCA Target Date – May 2006
OIG-03-069        F3-R3          ICE     Closed
OIG-04-023        F1-R1          ICE     Unresolved
OIG-04-023        F1-R2         USCIS    PCA Target Date – December 2006
OIG-04-023        F1-R3         USCIS    PCA Target Date – October 2006
OIG-05-021        F1-R1          CBP     PCA Target Date – September 2006
OIG-05-021        F2-R2          CBP     Closed




             Export Controls for Activities Related to the PRC
                                  Page 2
                     Appendix F
                     Report Distribution




Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
